		
	
	
	
	
           ASSESSMENT	REPORT	
                 13‐18	
                    	

	
                       	
                       	
     Webtrust	for	Certification	Authority	
            September	6,	2013	
                       	
	
	
	

                       	
	
	
	
	
Date	 	
September	6,	2013	
To	     	
Chief	Information	Officer	
From	
Inspector	General	
Subject	
Assessment	Report	‐	Webtrust	for	Certification	Authority	
Report	Number	13‐18	
	
Enclosed	please	find	the	subject	final	report.		The	Office	of	the	Inspector	General	
administered	a	contract	with	Ernst	&	Young	LLP	(E&Y)	to	provide	an	opinion	on	the	
Government	Printing	Office’s	(GPO)	assertions	regarding	their	certification	
authority	process	for	July	1,	2012	through	June	30,	2013.		E&Y	conducted	their	work	
in	accordance	with	attestation	standards	established	by	the	American	Institute	of	
Certified	Public	Accountants.		
	
E&Y	concluded	that	GPO’s	assertion	is	fairly	stated	in	all	material	respects.		E&Y	is	
responsible	for	the	attached	report	and	the	opinion	expressed	therein.			
	
 We	appreciate	the	courtesies	extended	to	E&Y	and	to	our	audit	staff.	 If	you	have	
 any	questions	or	comments	about	this	report,	please	do	not	hesitate	to	contact					
 Mr.	Jeffrey	C.	Womack,	Assistant	Inspector	General	for	Audits	and	Inspections	at	
 (202)	512‐2009	or	me	at	(202)	512‐0039.	
 	


                                    	
Michael	A.	Raponi		
Inspector	General		
	
Enclosure		
cc:		
Public	Printer	
Deputy	Public	Printer		
General	Counsel	
U.S. Government
Printing Office

Report of Independent Accountants
WebTrust for CA
For the Period July 1, 2012 to June 30, 2013
                                           Table of Contents


Report of Independent Accountants ....................................................................... 1
Management Assertion ......................................................................................... 3




1308-1122712
                             EY LLP                   Tel: +1 703 747 1000
                             8484 Westpark Drive      Fax: +1 703 747 0100
                             McLean, Virginia 22102   ey.com




                                         Report of Independent Accountants


To the Inspector General of the United States Government Printing Office and the Management
of the United States Government Printing Office Certification Authority:

We have examined the assertion by the management of the U.S. Government Printing Office
(GPO) that in providing its Certification Authority (CA) services known as GPO Public Key
Infrastructure Certification Authority (GPO-CA) in Washington, D.C. for the Root CA: GPO-CA
during the period July 1, 2012 through June 30, 2013, management of GPO has:

      disclosed its Business, Key Life Cycle Management, Certificate Life Cycle Management,
       and CA Environmental Control practices in its

          o     Certification Practice Statement, and
          o     Certificate Policy

      maintained effective controls to provide reasonable assurance that

          o     GPO’s Certification Practice Statement is consistent with its Certificate Policy
          o     GPO provides its services in accordance with its Certificate Policy and Certification
                Practice Statement

      maintained effective controls to provide reasonable assurance that

          o     the integrity of keys and certificates it manages is established and protected
                throughout their life cycles;
          o     the integrity of subscriber keys and certificates it manages is established and
                protected throughout their life cycles;
          o     the Subscriber information was properly authenticated; and
          o     subordinate CA certificate requests are accurate, authenticated, and approved

      maintained effective controls to provide reasonable assurance that

          o     logical and physical access to CA systems and data is restricted to authorized
                individuals;
          o     the continuity of key and certificate management operations is maintained; and
          o     CA systems development, maintenance, and operations are properly authorized
                and performed to maintain CA systems integrity

for the CA services known as GPO-CA, based on AICPA/CICA Trust Services Criteria for
Certification Authorities.

GPO’s management is responsible for its assertion. Our responsibility is to express an opinion
on management’s assertion based on our examination.


A member firm of EY Global Limited                                                                  1
Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants, and accordingly, included (1) obtaining an
understanding of GPO’s key and certificate life cycle management business practices and its
controls over key and certificate integrity, over the authenticity and privacy of subscriber and
relying party information, over the continuity of key and certificate life cycle management
operations, and over the development, maintenance, and operation of systems integrity;
(2) selectively testing transactions executed in accordance with disclosed key and certificate
life cycle management business practices; (3) testing and evaluating the operating
effectiveness of the controls; and (4) performing such other procedures as we considered
necessary in the circumstances. We believe that our examination provides a reasonable basis
for our opinion.

The relative effectiveness and significance of specific controls at GPO and their effect on
assessments of control risk for subscribers and relying parties are dependent on their
interaction with the controls, and other factors present at individual subscriber and relying
party locations. We have performed no procedures to evaluate the effectiveness of controls
at individual subscriber and relying party locations.

Because of the nature and inherent limitations of controls, GPO’s ability to meet the
aforementioned criteria may be affected. For example, controls may not prevent, or detect
and correct, error, fraud, unauthorized access to systems and information, or failure to
comply with internal and external policies or requirements. Also, the projection of any
conclusions based on our findings to future periods is subject to the risk that changes may
alter the validity of such conclusions.

In our opinion, for the period July 1, 2012 through June 30, 2013, GPO management’s
assertion, as set forth in the first paragraph, is fairly stated, in all material respects, based on
the AICPA/CICA Trust Services Criteria for Certification Authorities.

The WebTrust SM/TM seal of assurance for Certification Authorities on GPO’s web site
constitutes a symbolic representation of the contents of this report and it is not intended, nor
should it be construed, to update this report or provide any additional assurance.

This report does not include any representation as to the quality of GPO's services beyond
those covered by the Trust Services Criteria for Certification Authorities, nor the suitability of
any of GPO’s services for any customer's intended purpose.




August 16, 2013




A member firm of EY Global Limited                                                                   2
